<html>
<title> - MARKUP of H.R. 2134</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                          MARKUP of H.R. 2134

=======================================================================

                                 MARKUP

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, JULY 27, 2006

                               __________

      Printed for the use of the Committee on House Administration



                    U.S. GOVERNMENT PRINTING OFFICE
32-719                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
MICHAEL E. CAPUANO, Massachusetts      Ranking Minority Member
CHARLES A. GONZALEZ, Texas           DANIEL E. LUNGREN, California
SUSAN DAVIS, California              KEVIN McCARTHY, California
ARTUR DAVIS, Alabama
                      Liz Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


                          MARKUP OF H.R. 2134

                              ----------                              


                        THURSDAY, JULY 27, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:09 a.m., in room 
1310, Longworth House Office Building, Hon. Vernon J. Ehlers 
(chairman of the committee) presiding.
    Present: Representatives Ehlers, Ney, Doolittle, Millender-
McDonald, Brady, and Lofgren.
    Staff Present: Fred Hay, General Counsel; Bryan T. Dorsey, 
Professional Staff Member; Peter Sloan, Clerk; Craley Funfgeld, 
Staff Assistant; George F. Shevlin, Minority Staff Director; 
Michael Harrison, Minority Professional Staff Member; Matt 
Pinkus, Minority Professional Staff Member; and Kristin 
McCowan, Minority Staff Assistant.
    The Chairman. Good morning, ladies and gentlemen. The 
Committee on House Administration will come to order.
    First, I would like to advise members of our audience here 
today--as well as members of our staff, of course--that all 
cellular phones, pagers and other electronic equipment must be 
silenced to prevent interruption of our business. Thank you.
    Today, the committee will be conducting two types of 
business. First, we will mark up H.R. 2134, which establishes 
the Commission to Study the Potential Creation of a National 
Museum of the American Latino Community Act of 2006. I will be 
offering an amendment to the bill, which I will explain later.
    After this, we will move forward with the other business 
before us, an oversight hearing of the Library of Congress.
    The Latino American community is often recognized for its 
arabesque of rich traditions, sense of community and deeply 
rooted beliefs which are woven throughout the fabric of 
American history. As the Nation's fastest growing ethnic 
community, the Latino population in America has more than 
doubled in size to the last 10 years to over 40 million, and 
continues to grow. The creation of a National Museum of the 
American Latino Community would enable Latino Americans to tell 
their story, and would create a destination for students, 
families and visitors that would comprehensively depict Latino 
American history.
    In order to explore the possibility of creating such a 
museum, the legislation before us specifies that a commission 
be created with 23 members, seven of whom would be appointed by 
the President, and three voting and one non-voting member. Each 
would be appointed by the Speaker, the House minority leader, 
the Senate majority leader and the Senate minority leader.
    Once appointed, the commissioners would assess the cost of 
the museum, its impact on other Hispanic and Latino-related 
museums, identify a possible location for the museum, and 
propose guidelines for the museum's operation. The commission 
will also work closely with the Latino American community 
during the design and development phase to ensure that the 
museum creatively captures the Latino American experience.
    My staff has submitted an amendment to this legislation 
referencing several technical changes, including a provision to 
update the title of the legislation with 2006 in place of 2005, 
adding Senate Rules and Administration to the committee list 
for the receipt of the proposed legislation, and in section 
3(d) of the bill, clarify the language to reflect that the 2-
year appropriations authorization applies to fiscal year 2007 
and fiscal year 2008, not fiscal year 2006-2007.
    I urge my colleagues to support this important legislation, 
which is the first step in creating a national museum of the 
American Latino community that will serve as a testament to the 
vibrant history and tradition of Latino Americans.
    I would also like at this point to commend Mr. Ney, who, 
when he was chairman, began the work on this with the 
interested parties and gave them encouragement; and as a result 
of that encouragement, this bill was entered into the record 
and has been considered by the Resources Committee, and now by 
us.
    At this time, I would be pleased to recognize any member of 
the minority who might wish to comment in the absence of the 
ranking member, Ms. Millender-McDonald, who incidentally is at 
a very important function, the signing at the White House of 
the extension of the Voting Rights Act, which is so important 
to so many of us.
    So I am pleased to recognize the gentlewoman from 
California, Ms. Lofgren, for a comment.
    Ms. Lofgren. Thank you, Mr. Chairman. I will be brief. And, 
indeed, our ranking member is at the White House for that very 
important signing ceremony.
    I just would like to add my support to this bill, and also 
to commend my colleague from California, Congressman Becerra, 
who is the lead author of the bill, for his efforts to bring 
this very important effort forward.
    Certainly, as a Californian, this has special meaning to 
me. As you know, I chair the California Democratic Delegation, 
and our delegation is very interested in support of this 
effort. So I think this is a very important step forward for 
this effort that will honor and enlighten Americans about our 
Latino roots, especially in the West and Southwest; and I 
commend the chairman for his efforts as well.
    Thank you for recognizing me, and I yield back.
    The Chairman. And I thank you for your comments. Is there 
anyone else who wishes to comment?
    The Chair recognizes Mr. Ney.
    Mr. Ney. Thank you, Mr. Chairman. Thank you for your kind 
comments.
    It was a pleasure to work with Congressman Becerra and 
Congresswoman Ileana Ros-Lehtinen and a lot of other people on 
this issue. Your moving this forward, I think, is a wonderful 
thing to do.
    And I also look forward to Dr. Billington, our Librarian of 
Congress. Thank you.
    The Chairman. Thank you for your comments.
    Any other comments? Let us proceed to consideration of H.R. 
2134.
    The Chair asks unanimous consent that H.R. 2134 be 
considered as read and open to amendment at any point. Without 
objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2719A.001
    
    [GRAPHIC] [TIFF OMITTED] T2719A.002
    
    [GRAPHIC] [TIFF OMITTED] T2719A.003
    
    [GRAPHIC] [TIFF OMITTED] T2719A.004
    
    [GRAPHIC] [TIFF OMITTED] T2719A.005
    
    [GRAPHIC] [TIFF OMITTED] T2719A.006
    
    [GRAPHIC] [TIFF OMITTED] T2719A.007
    
    The Chairman. The Chair now offers an amendment in the 
nature of a substitute and asks unanimous consent that it be 
considered as read.
    Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2719A.008
    
    [GRAPHIC] [TIFF OMITTED] T2719A.009
    
    [GRAPHIC] [TIFF OMITTED] T2719A.010
    
    [GRAPHIC] [TIFF OMITTED] T2719A.011
    
    [GRAPHIC] [TIFF OMITTED] T2719A.012
    
    [GRAPHIC] [TIFF OMITTED] T2719A.013
    
    The Chairman. Is there any discussion on the chairman's 
amendment in the nature of a substitute?
    Hearing no discussion, I would--I am pleased to ask if 
there are any further amendments to the chairman's amendment in 
the nature of a substitute.
    Hearing none, the clerk will report the amendment--I am 
sorry--I am trying to go too rapidly here.
    The question is on the chairman's amendment in the nature 
of a substitute. Those in favor will say aye.
    Those opposed, no.
    The amendment in the nature of a substitute is adopted.
    The Chair recognizes Mr. Ney for the purpose of offering a 
motion.
    Mr. Ney. Thank you, Mr. Chairman.
    I move that H.R. 2134, as amended, be reported favorably to 
the House.
    The Chairman. The question is on the motion. Those in favor 
will say aye.
    Those opposed will say no.
    The motion carries. The motion is agreed to, and H.R. 2134, 
as amended, is reported favorably to the House, and the Chair 
notes that a quorum is present.
    I ask unanimous consent that members have 7 calendar days 
for statements and materials to be entered into the appropriate 
place in the record.
    Without objection, the material will be so entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's markup.
    Without objection, so ordered. And the bill is reported 
out.
    This concludes our markup of business, and we will now move 
into the committee's oversight hearing on the Library of 
Congress.
    [Whereupon, at 10:15 a.m., the committee proceeded to other 
business.]

                                  <all>

</pre></body></html>
